DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



            Letter Report: 


         DHS Compliance with 

     Prepackaged News Prohibition





OIG-08-89                 September 2008
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     September 2, 2008


MEMORANDUM FOR: 	             J. Edward Fox
                              Assistant Secretary
                              Office of Public Affairs


FROM: 	                       Richard L. Skinner
                              Inspector General

SUBJECT: 	                    Letter Report: DHS Compliance with Prepackaged News
                              Prohibition


We initiated a review to determine the Department of Homeland Security’s (DHS)
compliance with the prohibition against producing prepackaged news stories without
clear notification that the prepackaged news story was prepared or funded by the
department. The House and Senate Committees on Appropriations required that we
conduct this review.

We reviewed how DHS headquarters and a selection of its components provide
information to the public and, specifically, whether their activities include producing and
distributing prepackaged news stories. The selected components include U.S. Customs
and Border Protection (CBP), U.S. Immigration and Customs Enforcement (ICE), the
Federal Emergency Management Agency (FEMA), the Transportation Security
Administration (TSA), and the U.S. Coast Guard. We determined that the department
does not produce prepackaged news stories for broadcast or distribution within the United
States.

Should you have any questions, please call me, or your staff may contact
Carlton I. Mann, Assistant Inspector General for Inspections, at (202) 254-4100.




                                            1

Background

The Consolidated Appropriations Act, 2008 (Public Law 110-161) includes a
government-wide prohibition against the use of appropriated funds to produce
unattributed prepackaged news stories. Similar prohibitions have appeared in annual
appropriations bills since 1951. According to the 2008 Act,

           Unless otherwise authorized by existing law, none of the funds
           provided in this Act or any other Act may be used by an executive
           branch agency to produce any prepackaged news story intended for
           broadcast or distribution in the United States, unless the story
           includes a clear notification within the text or audio of the
           prepackaged news story that the prepackaged news story was
           prepared or funded by that executive branch agency.1

The Government Accountability Office (GAO) reviewed a number of instances of federal
agencies producing and distributing prepackaged news stories, and in February 2005,
issued an opinion to federal agencies reminding them of the prohibition and providing a
description of prepackaged news stories. According to the opinion,

           Prepackaged news stories are complete, audio-video presentations 

           that may be included in video news releases . . . . They are 

           intended to be indistinguishable from news segments broadcast to 

           the public by independent television news organizations.2


This description is the clearest explanation we have found for prepackaged news stories.
DHS public affairs officials agreed with this description and emphasized that
transparency is crucial when providing information to the public. Because the
Consolidated Appropriations Act, 2008 does not specifically define prepackaged news
stories, we used the GAO description for the purpose of determining DHS compliance
with the prohibition.




1
    P.L. 110-161, Division D, Title VII, § 741, 12/26/07. 

2
    Government Accountability Office, Prepackaged News Stories, B-304272, p. 1.



                                                    2                                      

 FEMA’s October 2007 Press Conference

 On October 23, 2007, FEMA held a press conference at which no media were in attendance because
 they were given very short notice of the event. Reporters could call in to listen, but were unable to ask
 questions during the press conference. Instead, only FEMA public affairs staff attended and asked
 questions of FEMA’s Deputy Administrator. While the press conference was widely criticized as
 inappropriate, it was not an instance of a prepackaged news story.

 A DHS review of the incident determined that the inadequate planning and execution of this press
 conference was an exception, and that there was no intent to deceive the media or the public. The
 review identified several factors that contributed to the incident: a lack of leadership and oversight
 within FEMA’s Office of External Affairs, poor communication within the office, and a series of
 questionable staff decisions, including not pushing back the press conference start time and instructing
 staff to be prepared to “spur discussion.” Since the incident, FEMA has implemented several reforms,
 including instituting standard operating procedures for press events, defining roles and responsibilities
 for staff, providing training, and promoting a culture of transparency, responsibility, and accountability
 from senior management to staff. In addition, FEMA apologized for its actions and bad judgment at the
 press conference, and disciplinary action was taken, as appropriate, against the individuals involved.


DHS Does Not Produce Prepackaged News Stories

DHS public affairs officials are committed to providing reliable and timely information to
the public in a transparent manner. To do this, DHS and its component organizations
produce and distribute a variety of products. The department, however, does not produce
prepackaged news stories.

DHS, CBP, ICE, FEMA, TSA, and the Coast Guard produce a number of products for
external distribution. Examples include press releases, fact sheets, informational
brochures, and photographs. Other public relations activities include public service
announcements, interviews, and press conferences. In addition, some component
organizations produce videos and b-roll, or raw video footage, of DHS employees
performing their duties. None of the components add narration to their b-roll footage,
and most remove all audio before releasing the footage to the media or public.
Occasionally, the Coast Guard releases video footage including technical explanations by
Coast Guard personnel. All products are clearly identified as having been produced by
DHS or the specific component, and most include the DHS seal.

DHS distributes public affairs products and department information to the media using a
number of methods, including media advisories, websites, tapes or discs, and links to
satellite downloads. Ultimately, the media decides what is newsworthy and creates news
stories using the information received from the department. Once the media obtains DHS
video footage, the department does not control how the media uses it. For example, the
media can edit the footage—select specific video clips from a larger video or add
narration—and then broadcast or distribute their news report. The department may or
may not be identified as the source of the video footage used in the broadcast report.

DHS and its components work regularly with the media to communicate information
regarding incidents or operations to the public. Complete transparency is required in
order to maintain credibility when providing information to the media and the public.


                                                     3                                                        

Producing news stories that would be indistinguishable from a broadcast news report
would undermine that credibility. While there is currently no written policy or guidance
within DHS, CBP, ICE, FEMA, TSA, or the Coast Guard regarding prepackaged news
stories, the department’s unwritten policy is clear and understood by DHS public affairs
personnel—DHS does not produce prepackaged news.

The department has committed to issuing written guidance on this policy following our
review. Because it does not produce prepackaged news stories, compliance with the
prohibition should be assured.

Management Comments and OIG Analysis

We received a written response to our draft report from the DHS Assistant Secretary for
Public Affairs. A copy of the comments is included in Appendix A. The Assistant
Secretary concurred with our finding that DHS and the selected components do not
produce prepackaged news stories.

*****************

We conducted our review from April 2008 to June 2008. This review was conducted
under the authority of the Inspector General Act of 1978, as amended, and according to
the Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.




                                            4                                              

Appendix A
Management Response




                      5   

Appendix A
Management Response




                      6   

Appendix B
Major Contributors to This Report


                   Douglas Ellice, Chief Inspector
                   Jennifer Lindsey, Inspector (Team Leader)
                   Kristine Odiña, Inspector




                                       7                       

Appendix C
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Under Secretary, Management
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary for Public Affairs
                      Chief Information Officer
                      Chief Information Security Officer
                      Commissioner for Customs and Border Protection
                      Assistant Secretary for Immigration and Customs Enforcement
                      Commandant, U.S. Coast Guard
                      Assistant Secretary, Transportation and Security Administration
                      Administrator, Federal Emergency Management Agency
                      DHS OIG Liaison
                      CBP OIG Liaison
                      ICE OIG Liaison
                      U.S. Coast Guard OIG Liaison
                      TSA OIG Liaison
                      FEMA OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations committees, as
                      appropriate




                                           8                                            

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600,
          Attention:
          Office of Investigations – Hotline,
          245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
